Report No. DODIG-2013-083                   May 15, 2013





       Efforts to Minimize Improper Payments for the 

       Shipment of Household Goods Were Generally 

             Effective But Needed Improvement

Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General Web site at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
CWT                           Hundredweight
DFAS                          Defense Finance and Accounting Service
DPS                           Defense Personal Property System
FSC                           Fuel Surcharge
GSA                           General Services Administration
HHG                           Household Goods
IPERA                         Improper Payments Elimination and Recovery Act
NTS                           National Traffic Service
PPSO                          Personal Property Shipping Office
SDDC                          Surface Deployment and Distribution Command
SIT                           Storage In Transit
TAC                           Transportation Account Code
TSP                           Transportation Service Provider
U.S.C.                        United States Code
USTRANSCOM                    United States Transportation Command
                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGINIA 22350-1500




                                                                                       May 15, 2013

MEMORANDUM FOR COMMANDER, SURFACE DEPLOYMENT AND DISTRIBUTION
                  COMMAND
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE

SUBJECT: Efforts To Minimize Improper Payments for the Shipment of Household Goods
         Were Generally Effective But Needed Improvement (Report No. DODIG-2013-083)

We are providing this report for your information and use. The Surface Deployment and
Distribution Command was taking steps to minimize overpayments on the shipment of
household goods, but improvements were needed. The Defense Finance and Accounting Service
also needed to improve reporting procedures on overpayments. We considered management
comments on a draft of this report when preparing the final report.

Management comments conformed to the requirements of DoD Directive 7650.3 ; therefore, we
do not require additional comments. We deleted draft report Recommendation B.l.a. from the
report .

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945.


                                       dz~T~L
                                         LorinT. Venable , CPA
                                         Acting Assistant Inspector General
                                         DoD Payments and Accounting Operations
   Report No. DODIG-2013-083 (Project No. D2012-D000DC-0098.000)                    May 15, 2013


                   Results in Brief: Efforts To Minimize
                   Improper Payments for the Shipment of
                   Household Goods Were Generally
                   Effective But Needed Improvement

                                                         related to shipments of household goods during
What We Did                                              FY 2012. DFAS accounting technicians
We determined whether the Department’s                   manually corrected the errors at a cost of about
efforts to minimize, identify, report, and recover       $2.6 million to the Military Departments and
improper payments on the shipment of                     Defense Agencies. The accounting errors
household goods were sufficient, effective, and          occurred primarily because DoD shipment
in compliance with applicable laws and                   counselors entered invalid accounting data into
regulations.                                             the Defense Personal Property System.

                                                         If the Department made needed improvements
What We Found                                            to prevent accounting errors within the first year
U.S. Transportation Command officials were               of the 6-year Future Years Defense Program,
taking action to minimize the number of                  $13 million of costs can be saved over the
overpayments made on the shipment of                     remaining 5 years.
household goods by implementing the Defense
Personal Property System. However, for the               What We Recommend
period July 2010 through March 2012, General
Services Administration (GSA) post-payment               We recommended the Commander, SDDC, use
audits identified 15,081 automated invoices and          GSA data to improve compliance and
1,313 paper invoices with potential                      implement automated controls over the input of
overpayments that DoD had not detected. The              Household Goods information. We also
Surface Deployment and Distribution Command              recommended the Director, DFAS, report
(SDDC) and the Defense Finance and                       improper payment information in accordance
Accounting Service (DFAS) did not obtain                 with guidance.
information from GSA that could assist in
identifying and preventing the improper                  Management Comments and
payments. SDDC did not make system change                Our Response
requests to detect payment errors such as statute        The Deputy Commander, U.S. Transportation
of limitations violations, duplicate payments,           Command, agreed with six recommendations
and inaccurate shipping weights. DFAS did not            and disagreed with three. The Director, DFAS
report the overpayments as required by                   Indianapolis agreed with three
improper payment guidance.                               recommendations. As a result of the comments
                                                         from U.S. Transportation Command, we deleted
As a result, DoD lost use of $4.6 million of             one draft recommendation. All other comments
overpayments, and DFAS underreported the                 from the Deputy Commander, U.S.
number of improper payments.                             Transportation Command and the Director,
                                                         DFAS Indianapolis were responsive.
DFAS identified that 142,636 of 229,411
processed line items contained accounting errors

                                                     i
Report No. DODIG-2013-083 (Project No. D2012-D000DC-0098.000)         May 15, 2013

Recommendations Table

     Management              Recommendations                   No Additional
                            Requiring Comment               Comments Required
Surface Deployment and                               A.1.a, A.1.b, A.1.c, B.1.a, B.1.b,
Distribution Command                                 B.1.c, B.1.d, B.1.e
Defense Finance and                                  A.2.a, A.2.b, B.2
Accounting Service




                                         ii
Table of Contents
Introduction	                                                              1     


      Objectives                                                           1     

      Background                                                           1     

      Review of Internal Controls                                          2     


Finding A. Additional Steps Needed To Identify, Report, and Prevent 

      Overpayments to Shippers                                             3      


      Defense Personal Property System Minimizes Errors                    3

      Audits Disclosed Overpayments                                        4         

      Obtaining Information From General Service Administration and 

        Initiating System Change Requests To Prevent Overpayments          5

      Statute of Limitations Violations                                    6         

      Using Overpayment Information To Monitor Prepayment Audits of 

        Paper Invoices                                                     9

      Improved Coordination Needed To Collect the Information on 

        Overpayments for Agency Financial Reporting                       11 

      Benefits of Reducing Future Overpayments                            12             

      Recommendations, Management Comments, and Our Response              12 


Finding B. Shipping Offices Data Processing Errors in Submitting Payment 

      Information Increased Accounting Costs                               14        


      Data Input Guidance                                                 14         

      Data Entry Errors Increased Processing Costs                        15         

      Shipment Counselors Used Invalid Data to Override Controls          16 

      Controls To Prevent Overrides Were Inadequate                       18         

      Reduced Accounting Costs                                            19         

      Recommendations, Management Comments, and Our Response              19


Appendixes

      A. 	Scope and Methodology                                           22 

             Use of Computer-Processed Data                               23         

             Use of Technical Assistance                                  23         

             Prior Coverage                                               23         

      B. Overpayments Reviewed           	                                24         


Management Comments

      United States Transportation Command                                32             

      DFAS Indianapolis                                                   35             

Introduction
Objectives
The audit objective was to determine whether the Department’s efforts to minimize, identify,
report, and recover improper payments on the shipment of household goods were sufficient,
effective, and in compliance with applicable laws and regulations. See Appendix A for the scope
and methodology and prior coverage related to the objective.

Background
DoD processed 1,336,911 invoices and paid $3.5 billion from July 2010 to March 2012 to ship
household goods for DoD military and civilian employees who relocated to and from DoD
installations worldwide. DoD used US Bank’s third party payment system (called Syncada) to
make the payments to Transportation Service Providers (TSPs).

United States Transportation Command (USTRANSCOM) and Surface Deployment and
Distribution Command (SDDC) managers used the Defense Personal Property System (DPS) to
manage the shipment of Household Goods (HHG). The shipments were processed by
112 Personal Property Shipping Offices (PPSOs) worldwide. USTRANSCOM was in the
process of consolidating the operations from 151 PPSOs to 17.

Invoices, such as those from European locations, could not yet be processed electronically. For
example, in the first half of FY 2012, TSPs submitted 14,588 paper invoices, and the Defense
Finance and Accounting Service (DFAS) made $24.6 million in related payments. However, by
July 2017, DPS is scheduled to replace paper invoices and the methods for approving paper
invoices.

The Transportation Act of 1940, as amended, title 31, United States Code, section 3726
(31 U.S.C. § 3726 [2011]), authorizes the General Services Administration (GSA) to perform
post-payment audits of all paid transportation billings for DoD. As required by the law, the
overpayments GSA recovers are transferred to miscellaneous receipts of the Treasury. DFAS
used a private contractor to perform prepayment audits of shipments to assist it in validating
charges on paper invoices.

During FY 2012, nearly 97 percent of the HHG contractor invoices were electronically processed
through DPS and its predecessor (Transportation Operational Personal Property Standard
System).

The DPS Functional Review Board initiates, approves, and prioritizes system change requests.
Board members include representatives from the Services, USTRANSCOM, and SDDC.

Improper Payments
On July 22, 2010, the President signed Public Law 111-204, “Improper Payments Elimination
and Recovery Act of 2010” (IPERA), which amended the “Improper Payments Information Act
of 2002.” According to IPERA, “improper payment” means any payment that should not have


                                                1

been made or that was made in an incorrect amount (including overpayments and
underpayments) under statutory, contractual, administrative, or other legally applicable
requirements. An improper payment includes duplicates and payments to an ineligible recipient,
payments for an ineligible good or service, and payments for a good or service not received.
Reportable improper payments include overpayments, underpayments, and recovered funds.

Statute of Limitation
Title 31, U.S.C. section 3726, “Payment for Transportation,” requires each agency that receives a
bill from a carrier for transporting property to verify its correctness using a prepayment audit in
accordance with section 3726 and GSA regulations. Furthermore, a claim received under section
3726 will be allowed only if the claim is received not later than 3 years after the later of the
following: accrual of the claim, payment for the transportation, refund for an overpayment, or
deduction from an amount subsequently due.

Review of Internal Controls
DoD Instruction 5010.10, “Managers’ Internal Control Program (MICP) Procedures,” July 29,
2010, requires DoD organizations to implement a comprehensive system of internal controls that
provides reasonable assurance that programs are operating as intended and to evaluate the
effectiveness of the controls. We identified internal control weaknesses concerning the
minimization, identification, reporting, and recovery of improper HHG payments. We
determined that SDDC and DFAS needed to improve controls over the processing of HHG
payments. Specifically, SDDC officials did not implement sufficient and effective controls to
ensure compliance with payment procedures, and PPSO shipment counselors frequently input
invalid accounting data into DPS. This occurred because SDDC and DFAS did not obtain
information from GSA that could assist in identifying and preventing the improper payments. In
addition, SDDC did not make system change requests to detect payment errors such as statute of
limitations violations, duplicate payments, and inaccurate shipping weights, and DFAS did not
report the overpayments as required by improper payment guidance. We will provide a copy of
the report to the senior official responsible for internal controls at SDDC and DFAS.




                                                2

Finding A. Additional Steps Needed To Identify,
Report, and Prevent Overpayments to Shippers
During the audit, USTRANSCOM officials were taking action to minimize the number of
overpayments made on the shipment of household goods by implementing the Defense Personal
Property System, which standardizes processes for approving invoices. However, for the period
July 2010 through March 2012, GSA post-payment audits identified 15,081 automated invoices
and 1,313 paper invoices with potential overpayments that DoD had not detected. A review of a
non-statistical sample of 60 of the largest overpayments GSA recovered showed that these
problems occurred for the following reasons:

   	 SDDC personal property division staff did not obtain information on electronic invoice
      overpayments from GSA and did not initiate systems change requests and automated
      checks to assist PPSOs in identifying errors such as statute of limitations violations,
      duplicate payments, and inaccurate shipping weights;

   	 DFAS transportation payment office personnel did not effectively use GSA’s information
      on paper invoice overpayments to monitor the contractor performing pre-payment audits
      of paper invoices; and

   	 DFAS Transportation Payment Office did not coordinate with GSA officials to collect the
      information on the overpayments for reporting the improper payments in the Agency
      Financial Report.

As a result, DoD lost the use of $4.6 million of funds that GSA identified as overpayments,
recovered, and transferred to miscellaneous receipts of the Treasury. Additionally, DFAS
understated the number of improper payments and recoveries in DoD financial statement reports.

Defense Personal Property System Minimizes Errors
During the audit, the USTRANSCOM Joint Program Management Office for HHG Systems was
in the process of implementing DPS to provide an integrated, Web-based information
management system. Implementation of DPS began in January 2009, and all household goods
     DPS employs a costing        shipments are scheduled to be managed in DPS by FY 2017.
        engine to minimize        The transportation process within DPS consists of six
          overcharges.            functional areas: counseling, shipment management, quality
                                  assurance, claims, customer satisfaction survey, and
invoicing. PPSO staff, Service members, and transportation service providers gain access to
DPS on its host Web site www.move.mil. DPS employs a costing engine to minimize
overcharges and interfaces with Syncada to control the processing and approval of invoices
submitted by the TSPs. TSPs are required to annually file their rates in DPS, which uses a rate
reasonableness methodology to evaluate the rates and assign a unique rating score for each TSP.
TSPs are assigned a ranking that PPSOs use to distribute shipment awards.




                                               3

Processing of Electronic Invoices
In October 2003, GSA approved the use of electronic billing systems for HHG payments. In
February 2004, DFAS reviewed the electronic billing system and concluded that the process
offered reasonable assurance that payments would be correct and free from fraud and error. An
overview of the process follows.

Upon delivery of HHG to a service member’s residence, the TSP submits an invoice via
Syncada. Syncada assigns a unique identifier and transmits the information to DPS for approval
by the responsible PPSO. Once all services on the invoice are reviewed and subsequently
approved or denied, DPS costs the shipment. Syncada uses a matching model to compare the
TSP’s data to DPS. If the data is within established tolerances, Syncada automatically approves
payment to the TSP. However, when a transaction does not meet the established tolerances,
Syncada flags the invoices, and the PPSO must manually approve the payment. The PPSO
reviews the invoice in DPS and approves, disputes, or denies each line item. The DPS system
requires invoices to be approved before payment. However, additional improvements can be
made to the system to prevent duplicate payments, statute of limitation violations, and weight
errors.

At the end of the monthly billing cycle, Syncada generates a summary invoice that is available
online for review by an account certifying officer. The certifying officer reviews the individual
transactions on the summary invoice and confirms accounting information and cost accuracy.
Once certified, an invoice cannot be changed. Syncada is required to maintain an audit trail of
all changes to shipment information in accordance with the Chief Financial Officer’s Act of 1990
and the Federal Financial Management Improvement Act of 1996.

Audits Disclosed Overpayments
As required by 31 U.S.C. § 3726, the Department relied on GSA to perform post-payment audits
of DoD HHG shipments. Table 1 shows the results of GSA post-payment audits of DoD HHG
shipments for the period July 2010 through March 2012. GSA issued about $12.7 million in
overcharge notices to TSPs and recovered about $4.3 million.

                Table 1. GSA Overcharge Notices from Electronic Invoices

                                July 2010 – March 2012

                                       Syncada
                            Status       Count      Amount
                           Issued             15,081   $12,695,915
                           Pending             7,852    $6,333,168
                           Settled             7,229     $4,262,874
                           Not Recovered                 $2,099,873




                                               4

The $4.3 million recovered by GSA is not a significant amount compared to the total value of
HHG payments processed through Syncada.1 However, there is still room for improvement.
Specifically, SDDC and DFAS needed to establish a process to obtain improper payment
information from GSA.

Obtaining Information From General Services Administration
and Initiating System Change Requests To
Prevent Overpayments
GSA audits identified areas in which SDDC could have stopped overpayments before they were
made had SDDC coordinated with GSA to analyze the information and made systems changes to
automatically detect overpayments. Of the 7,229 settled invoices with recoveries that GSA
                                        audits identified, we reviewed the 50 largest
     The SDDC personal property
                                        overpayments processed electronically through
  division should obtain this type of
                                        Syncada. See Appendix B for details of the
   information from GSA quarterly.
                                        50 overpayments. The data showed that PPSO
personnel did not comply with control procedures and made errors during the approval of
invoices that caused overpayments to be made to TSPs. Table 2 shows the 10 types of errors that
occurred in the 50 items sampled. Statute of limitation violations, duplicate payments, and
weight inaccuracies were the most frequent errors.

                      Table 2. Invoice Errors on Syncada Overpayments 

                                July 2010 Through March 2012 

           Type of Error        Number     Overcharge Amount     Amount Recovered*
     Statute of Limitation              15               $254,976                       $256,904
     Duplicate Payment                  14                159,146                        159,424
     Weight Inaccuracies                 7                 60,510                         65,832
     Storage                             5                 79,044                         79,708
     Terminations                        3                 34,174                         34,179
     Mileage Errors                      2                 18,644                         18,301
     Bunker Surcharge Error              1                 44,540                         45,255
     Crating Overcharge                  1                 18,629                         19,262
     Fuel Surcharge Error                1                 16,938                         17,021
     Linehaul Charge Error               1                 16,345                         16,537
      Total                             50               $702,946                       $712,423
    * Includes Interest

The SDDC personal property division should obtain this type of information from GSA quarterly
and use it to identify areas that need improvement. SDDC officials can improve the system and


1
  According to the IPERA, overpayments become significant when totaling 1.5 percent of the program outlays. For
the HHG program, 1.5 percent of $3.5 billion in payments would total about $52 million.


                                                       5

the existing processes to prevent duplicate payments and reduce other overpayments by
coordinating with GSA to understand the causes of overpayments discovered during post-
payment audits and making changes based on the results.

Statute of Limitations Violations
The most frequent cause of overpayments in the sample of 50 GSA identified overpayments was
that PPSO personnel did not comply with Statute of Limitation control procedures. As shown in
  DPS should automatically flag statute  Table 2, 15 of the 50 Syncada overpayments, valued
  of limitation violations for review by at $254,976, were made after the expiration of the
        PPSO approving officials.        3-year statute of limitations prescribed by
                                         31 U.S.C. 3726.

Table 3 shows that 15 invoice dates exceeded the 3-year statute of limitations. Personnel at the
Navy’s Puget Sound shipping office processed 13 of the 15 overpayments, and personnel at Fort
Lewis and Fort Belvoir processed the other 2.

                   Table 3. Violations of the 3-Year Statute of Limitations
      GBL         Overcharge         Shipping            Delivery         Invoice       Elapsed
     Number        Amount             Office               Date            Date         Months
    ZX407134       $44,509          Puget Sound         April 7, 2007    May 5,2010        37
    ZX145704        26,551          Puget Sound         June 19, 2006    July 7, 2010     49
    ZX144957         23,381         Puget Sound         May 19, 2006    Mar 12, 2010      46
    ZX407737         19,668         Puget Sound         June 27, 2007   July 21, 2010     37
    ZX275774         18,884         Fort Lewis          June 13, 2006    July 1, 2010     49
    ZX146370         17,606         Puget Sound          July 7, 2006    Jan 21, 2010     43
    ZX145694         16,070         Puget Sound         May 26, 2006     July 6, 2010     50
    ZX406232         15,630         Puget Sound         Dec 29, 2006    May 12, 2010      41
    ZX408137         14,302         Puget Sound         May 25, 2007    July 12, 2010     38
    ZX145403         12,304         Puget Sound          July 3, 2006   May 25, 2010      47
    ZX408599         11,798         Puget Sound         June 24, 2007   July 22, 2010     37
    ZX405689          8,738         Puget Sound          Feb 1, 2007    May 11, 2010      39
    ZX145659          8,678         Puget Sound         July 27, 2006    July 1, 2010     47
    ZX406623          8,513         Puget Sound          Jan 25, 2007   July 12, 2010     42
    ZX247179          8,345         Fort Belvoir        Sept 21, 2006    Jan 11, 2010     40
    Total          $254,976


Most of the overpayments were to one TSP, Hill Moving Services, Inc. It submitted 14 of the
15 overpayments shown in Table 3. On August 23, 2012, the Puget Sound Supply Management
Director stated the payments were made in good faith but could not provide an adequate
explanation for improperly approving the invoices for payment. The Director also stated that



                                                   6

Puget Sound’s processes and training on invoice handling had become much stronger since 2010
and that in May 2012, the Puget Sound office had participated in a Lean Six Sigma Continuous
Process Improvement event with other Navy offices and DFAS to improve invoice processing.
GSA did not provide information on overpayments, such as those shown in Table 3, to SDDC
transportation officials. Obtaining data regularly from GSA will help identify activities, such as
Puget Sound, that are causing overpayment problems when processing invoices. DPS should
automatically flag statute of limitation violations for review by PPSO approving officials.
However, SDDC officials indicated DPS does not automatically flag these violations. SDDC
officials indicated the system did not have the capability to detect and prevent these types of
errors and SDDC would need to request a system change to improve detection.

Even though GSA collected the overpayments, DoD lost the use of the funds after GSA
deposited the recovered overpayments to miscellaneous receipts to the Treasury, as required by
law. SDDC officials should request a system change to automatically flag statute of limitation
violations.

Duplicate Payments
GSA audits also showed PPSO approving officials approved duplicate invoices submitted by
TSPs even though the duplicate invoices were identifiable in the personal property computer
systems. Approving officials should not have approved the duplicate invoices. The following
are 3 of the 14 examples of duplicate payments disclosed in the sample of 50.

       	 Shipment no. KQ146385 was a shipment of household goods from Kailua, Hawaii, to
          Middleburg, Florida. The TSP submitted two invoices on March 11, 2010, for identical
          amounts of $18,399. The PPSO official approved both and paid the TSP $36,799.2 GSA
          identified and recovered the duplicate payment.

       	 Shipment no. BGAC0003525 was a shipment of household goods from Fort Meade,
          Maryland, to the Schinnen, Netherlands. The TSP submitted the initial invoice on
          November 11, 2009, for $13,242, and it was approved by a PPSO-Washington official.
          The TSP submitted a second invoice for $13,242 on February 18, 2011, and it was
          incorrectly approved by a PPSO-Washington official. GSA identified and recovered the
          duplicate payment.

       	 Shipment no. HAFC0016177 was a shipment of household goods from Plant City,
          Florida, to Kapolei, Hawaii. The TSP submitted three invoices that included the same
          $11,654 charge. The first invoice was submitted on September 21, 2010, and was denied
          by a PPSO-San Antonio official. The TSP submitted a second invoice on November 2,
          2010, which the official approved. The PPSO-San Antonio official subsequently
          approved another invoice submitted by the TSP on November 12, 2010. GSA identified
          and recovered the duplicate payment.




2
    Does not exactly total because of rounding.


                                                  7

SDDC did not have a post-payment review function to ensure that PPSOs complied with
payment procedures. During the audit, SDDC officials implemented a new process using
                                    exception reports to identify duplicate payments.
 During the audit, SDDC officials
                                    However, SDDC officials should also request a system
  implemented a new process . . .
                                    change in DPS to flag potential duplicate payments and
  to identify duplicate payments.
                                    prevent their approval by PPSO personnel.

Weight Adjustment Errors
GSA audits identified seven cases in which PPSO approving officials did not properly review
shipping weight information when approving TSP invoices. Three examples follow.

   	 Shipment No. BGAC0021480 was a movement of household goods from Stafford,
      Virginia, to a storage facility in Pearl Harbor, Hawaii, on July 29, 2011. The TSP
      submitted its invoice on August 1, 2011, and the TSP was paid $15,847 based on a
      shipping weight of 14,400 pounds. The shipment was reweighed on August 25, 2011,
      before it was delivered to its final destination. The reweigh found the correct weight was
      only 9,725 pounds, and DoD should have paid the TSP only $10,672. On September 16,
      2011, the TSP submitted an amended invoice to adjust for the lower shipment weight
      identified in the reweigh. However, the amended invoice contained errors on the linehaul
      refund amount, adjusted linehaul charge, and fuel surcharge. The PPSO-Washington
      approving official did not detect the errors and repaid the TSP based on the original
      incorrect weight. GSA ultimately recovered $10,659 from the TSP, which GSA
      determined had been overpaid because of the weight related invoicing errors.

   	 Shipment No. WKAS0000671 was a movement of household goods from Rotterdam,
      Netherlands, to a storage facility in Fairview Heights, Illinois, on July 9, 2009. The TSP
      submitted an invoice on July 13, 2009, and was paid $30,513 based on a shipping weight
      of 19,480 pounds. The shipment was reweighed on November 2, 2009, before it was
      delivered to its final destination. The reweigh found the correct weight was only
      13,940 pounds, and DoD should have paid the TSP only $21,836. The European PPSO
      approving official, however, did not follow-up and require the TSP to submit a
      supplemental invoice to adjust for the corrected weight. GSA recovered $8,808 from the
      TSP that was overpaid because of the weight-related invoicing errors.

   	 Shipment No. LFMT0001393 was a movement of household goods from Fullerton,
      California, to a storage facility in Honolulu, Hawaii, on December 10, 2009. The TSP
      submitted invoices on January 29, 2010, and March 10, 2010, and was paid $12,915
      based on the estimated shipping weight of 10,000 pounds. Camp Pendleton quality
      assurance personnel failed to identify that the TSP used the estimated weight to calculate
      the shipment charges instead of the actual net weight of 3,170 pounds. GSA recovered
      $8,551 from the TSP that was overpaid because of the weight-related invoicing errors.

By reviewing and investigating the types of overpayments that GSA found in the area of weight
adjustment, SDDC could have taken action to prevent future occurrences. Specifically, the DPS
system needed to be improved to ensure that approving officials are notified and take appropriate
action when a reweigh occurs. In addition, the DPS system needed improvement to implement


                                                8

best practices from the PPSO-Washington and PPSO-Hawaii related to reweighs of inbound
shipments as described in the following paragraphs.

PPSO-Washington reweigh reports showed its inspectors had saved $983,174 since 2007.
However, the savings had decreased under DPS primarily because the former system,
                                          Transportation Operational Personal Property Standard
  To improve visibility, DPS needed       System (TOPS), provided better visibility of inbound
    to produce reweigh reports or         shipments. Quality assurance personnel at the PPSO
   flags that inspectors could have       stated that savings in 2012 totaled $25,000 for the period
       used to detect anomalies.          January through April. They stated that savings would
increase if DPS provided better visibility on inbound shipments. To improve visibility, DPS
needed to produce reweigh reports or flags that inspectors could use to detect anomalies.

Navy officials stated that the PPSO-Hawaii witness reweigh program had saved or avoided about
$3.5 million since 2005, or about $500,000 per year. Navy PPSO-Hawaii personnel agreed that
visibility within DPS was limited but indicated they had developed a successful work around
procedure. According to the Navy personnel, the PPSO-Hawaii procedure identified shipments
en route that met certain pre-established parameters. Those shipments were then flagged by DPS
for a reweigh. According to the Navy personnel, the flag in DPS informed the TSP well in
advance a reweigh would occur.

USTRANSCOM and SDDC officials did not obtain information on overpayments from GSA and
did not initiate systems change requests to assist PPSOs in identifying statute of limitation
violations, duplicate payments, and weight errors. SDDC personal property division staff stated
they had no information on the types of overpayments GSA post-payment audits were detecting.
Although USTRANSCOM implemented a system update during the audit to improve detection
of unusual reweigh transactions, PPSO-Washington reweigh inspectors had not yet determined
whether the system update was effective. The inspectors also stated that reweigh efforts were
unique to each PPSO and SDDC did not have a process to share best practices. SDDC officials
needed to implement a best practices reweigh program at the PPSOs.

Using Overpayment Information To Monitor Prepayment
Audits of Paper Invoices
GSA recovered $341,543 on overpayments related to 716 recovery notices on paper invoices for
the period July 2010 through March 2012. In addition to the electronic invoices processed in
Syncada, GSA also reviewed invoices submitted on paper that DFAS had paid. The majority of
the items in our sample (50 of 60) were overpayments that were made electronically. For 10 of
the overpayments in our sample, GSA recoveries showed DFAS did not effectively monitor a
contractor performing pre-payment audits of paper invoices. See Appendix B for details of the
10 overpayments.

DFAS made the payments for HHG shipments using paper invoices submitted by TSPs. DFAS
used a contractor, the National Traffic Service (NTS), to perform prepayment audits of the paper
invoices. However, GSA personnel still identified overpayments on these paper invoices during
their post-payment audits. As shown in Table 4, GSA settled 716 recovery notices and
recovered $341,543 related to overpayments on paper invoices.


                                                 9

                       Table 4. GSA Recovery Notices from Paper Invoices

                                 July 2010 Through March 2012

                                         Paper Invoices
                               Status         Count       Amount
                         Issued               1,313        $1,150,183
                         Pending                597         $653,760
                         Settled                716          $341,543
                         Not Recovered                       $151,879

Of the paper invoices GSA recovered, we reviewed the 10 invoices with the highest overcharge
amounts to determine the cause of the overpayment and actions needed to prevent them. As
shown in Table 5, duplicate payments were the most common type of error, and GSA recovered
$78,283 on the 10 invoices.

                     Table 5. Overpayment Errors on Paper Invoices

                             July 2010 Through March 2012 

         Description      Overcharges Overcharge Amount        Amount Recovered*
  Duplicate Payment                 4                $37,822                $38,230
  Weight Adjustment                 2                 12,430                 12,621
  Linehaul Charge Error             1                 11,065                 11,322
  Tender Rate Alteration            1                  5,508                  5,563
  Crating Overcharge                1                  5,451                  5,472
  Storage Overcharge                1                  4,992                  5,121
   Total                           10                $77,269                $78,283
 * Includes Interest

For the four overpayments shown as duplicates in Table 5, DFAS personnel could not explain
why the prepayment audit firm did not detect the duplicate payments. For example, shipment no.
ZX-737201 was a shipment of household goods from Newport News, Virginia, to Eielson Air
Force Base, Alaska. In January 2009, the TSP submitted an invoice for $35,418, and DFAS paid
it. The TSP, however, submitted another invoice for $21,218 the following month, and DFAS
paid this invoice as well.

DFAS Personal Property Exam Division officials could not provide an explanation for paying
the second invoice and why it was improperly approved for payment. Additionally, DFAS could
not explain why its pre-payment auditor (NTS) reviewed both invoices and verified the second
for payment.

GSA ultimately recovered the second payment of $21,218 from the TSP and returned the funds
to the Treasury. However, this resulted in a loss of use of the funds to DoD, which was
preventable through better performance of the pre-payment reviews.


                                              10 

DFAS Indianapolis Transportation Payment Office used NTS to perform pre-payment audits on
paper invoices submitted by TSPs. The paper invoices are used in special circumstances in
which the TSP does not have access to Syncada. For example, TSPs in some overseas locations
and those moving unique one-time-only shipments submit paper invoices.

According to the contract statement of work, NTS was responsible for pre-payment audits of all
European and domestic paper bills. The statement of work required NTS to determine whether
the invoice and charges were complete and proper. The contract also required NTS to submit
periodic management reports to DFAS Indianapolis. According to DFAS, during FY 2012 NTS
audited 25,788 invoices with a total payment of $39.9 million.

DFAS Personal Property Exam Division officials provided documents indicating NTS reviewed
5 of the 10 invoices shown in Table 5. However, NTS pre-payment audits on those five invoices
did not identify $48,832 in erroneous charges that GSA later identified during its post-payment
reviews. For example, on HHG shipment no. GQ120714, NTS failed to identify $11,065 in
overcharges because of a linehaul charge error.3 Discussions with SDDC personnel indicated
NTS should have detected this overcharge.

Although the 10 invoices shown in Table 5 were subject to NTS pre-payment audit, the invoices
provided by DFAS indicated that NTS had reviewed only 5 of the invoices. DFAS management
reports related to the NTS contract did not show HHG payments separately from other
transportation payments NTS reviewed. The reports showed a return on investment of more than
        NTS should have identified           $11.95 million for the period October 2010 through
         $1.15 million in potential          July 2012. The reports did not identify the amount
   overcharges that were subsequently        related to HHG data and did not include
    identified by GSA during its post-       overpayments subsequently detected by GSA after
              payment audits.                NTS completed its review. GSA identified errors on
                                             1,313 invoices that were subject to pre-payment
review by NTS during the 21-month period we reviewed. NTS should have identified
$1.15 million in potential overcharges that were subsequently identified by GSA during its post-
payment audits. DoD could have put the $1.15 million to better use. DFAS needs to obtain
information from GSA about errors on manual invoices and develop a plan to review and
improve efforts to monitor NTS performance on pre-payment audits of HHG payments.

Improved Coordination Needed To Collect the Information on
Overpayments for Agency Financial Reporting
In their reports on improper payments included in the IPERA reports, DFAS Indianapolis
Transportation Payment Office personnel did not report the number of improper payments GSA
detected and recovered. Specifically, the $4.6 million ($4.3 million electronic and $0.3 million
paper invoices) in overpayments identified by GSA were not included. This occurred because
DFAS did not coordinate with GSA to obtain overpayment information on HHG overpayments.
DoD is required to report improper payments annually in its IPERA reports. Including the


3
    Linehaul is a transportation fee based on distance and weight.


                                                           11 

overpayments in the IPERA reports will prevent future understatement of improper payments.
DFAS needs to coordinate with GSA to obtain and report the overpayment information.

Benefits of Reducing Future Overpayments
Because GSA was required by law to deposit the recovered overpayments to miscellaneous
receipts of the Treasury, the Department lost the use of resources because of the overpayments.
USTRANSCOM and SDDC officials were taking effective action to minimize the number of
overpayments made on the shipment of household goods by implementing the Defense Personal
Property System that standardizes processes for approving invoices. However, with additional
improvements that flag and prevent overpayments, the Department could better use HHG
funding.

Recommendations, Management Comments, and
Our Response
A.1. We recommend that the Commander, Surface Deployment and Distribution Command:

       a. Obtain information on electronic invoice overpayments from the General Services
Administration to measure compliance with payment approval procedures by Personal
Property Shipping Offices using information from the General Services Administration
post-payment audits.

USTRANSCOM Comments
The Deputy Commander, USTRANSCOM, responded on behalf of SDDC. The Deputy
Commander agreed with the recommendation and stated that SDDC had been collaborating with
GSA to implement a process for monitoring and minimizing overcharges by TSPs. The Deputy
Commander stated that SDDC would provide information on the overcharges to the PPSOs.

       b. Initiate system change requests to assist Personal Property Shipping Offices in
identifying statute of limitations violations, duplicate payments, and weight limit
infractions.

USTRANSCOM Comments
The Deputy Commander agreed with the recommendation and stated that SDDC is developing a
DPS system change request to identify shipments outside of the 3-year limitation, duplicate
payments, and weight limit infractions. Estimated completion date is unknown pending award of
DPS contract in October 2013.

       c. Implement a program to routinely collect and distribute information on reweigh
best practices amongst the Personal Property Shipping Offices.

USTRANSCOM Comments
The Deputy Commander agreed with the recommendation and stated that SDDC is developing a
tailored reweigh program template for PPSOs. Estimation completion date is May 2013.




                                              12 

Our Response
The Deputy Commander’s comments on Recommendations A.1.a through A.1.c were responsive
and no further comments were required.

A.2. We recommend that the Director, Defense Finance and Accounting Services:

      a. Obtain information from the General Services Administration about errors on
manual invoices and develop a plan to review and improve efforts to monitor contractor
performance on pre-payment audits of household goods payments.

DFAS Comments
The Director, DFAS Indianapolis, agreed with the recommendation and stated that the DFAS
Transportation Payment Office would work with GSA to obtain periodic reports of errors not
identified by NTS pre-payment reviews. The Director stated that DFAS would analyze the
errors and develop a plan to review and improve DFAS efforts to monitor NTS performance on
prepayment audits of HHG payments. Estimated completion date is April 1, 2014.

      b. Obtain information from the General Services Administration about
overpayments and report the improper payments in accordance with Improper Payments
Elimination and Recovery Act requirements.

DFAS Comments
The Director agreed with the recommendation and stated that DFAS would coordinate with GSA
to obtain periodic information about HHG overpayments that should be included in annual
reports on improper payments. Estimated completion date is April 1, 2014.

Our Response
The Director’s comments on Recommendations A.2.a through A.2.b were responsive, and no
further comments were required.




                                            13 

Finding B. Shipping Offices Data Processing
Errors in Submitting Payment Information
Increased Accounting Costs
DFAS identified that 142,636 of 229,411 HHG line items (62 percent) contained accounting
errors that forced manual processing of payments during FY 2012. DFAS accounting
technicians manually corrected these accounting errors, but at increased cost to the Military
Departments and Defense Agencies.

Accounting errors occurred primarily because DoD shipment counselors overrode the controls of
the DPS system and entered invalid data in the system, which required subsequent manual
correction by DFAS accounting technicians. The DPS did not have controls to prevent the
invalid system overrides by shipment counselors. Additionally, DPS training documents
recommended the overrides be used. PPSO certifying officers did not identify and correct the
errors and certified invoices with inaccurate accounting information.

As a result, manual processing of the errors cost the Military Departments and Defense Agencies
about $2.6 million more than electronic payments. Eliminating the data processing errors could
reduce future accounting costs for the Department. If the Department made needed
improvements within the first year of the 6-year Future Years Defense Program, $13 million
could be saved over the remaining 5 years (5 times $2.6 million).

Data Input Guidance
PPSO shipment counselor guidance and procedures for inputting shipment data were provided in
the DPS Smart Book and the Defense Travel Regulation Part IV, chapter 401, “General
Provisions,” February 15, 2012. Business rules and process descriptions were provided in the
Defense Personal Property Program “Line of Accounting” reference guide, July 2010.

DFAS HHG Billing Procedures
DFAS applied unique fees to work counts to determine the billings for its customers. Initially,
Syncada flags incorrect and incomplete accounting data for manual review by DFAS personnel.
The DFAS “Doing Business with DFAS Catalog of Services,” November 30, 2011, provides
detailed information on DFAS outputs and work counts that are used to determine customer
billing rates. After determining the different work counts, DFAS applied unique fees to
determine the billings for its customers. Specifically, DFAS classified their HHG work counts
for billing purposes into two categories: Output 09 (manual intervention) and Output 49
(electronic).

      Output 09 included all lines of accounting used to pay vendor invoices in which the
       invoice was not electronically received into the entitlement system, requiring manual
       input by DFAS.
      Output 49 included all lines of accounting used to pay vendor invoices when the
       entitlement system electronically received the contract/modification, the invoice, and the
       receiving report (if required), and no manual input of those data elements into the
       entitlement systems occurred.


                                               14 

Data Entry Errors Increased Processing Costs
During FY 2012, PPSO shipment counselors made data processing errors related to shipments of
household goods that required additional manual intervention by DFAS accounting technicians
                                            and increased accounting costs. As shown in Table 6,
       DFAS billed the Military
                                            the input errors caused DFAS to manually correct
  Departments and Defense Agencies
                                            142,636 of the 229,411 line items it processed during
    about $3.2 million to manually
                                            FY 2012 throughout the Military Departments and
          correct the errors.
                                            Defense Agencies. The error rate of 62 percent was
unacceptable. In addition, controls in Syncada required DFAS accounting technicians to
manually intervene to correct these errors.

                Table 6. Line Items Requiring Manual Correction by DFAS
                                               FY 2012
                                   Navy                67,065
                                   Army                49,702
                                   USAF                15,463
                                   Other DoD            9,935
                                   USMC                  471
                                    Total             142,636

The manual corrections resulted in increased fees to the Military Departments and Defense
Agencies because manual processing was more expensive. Specifically, DFAS applied different
fees for manual and electronic processing of transactions for its customers. As shown in Table 7,
DFAS billing rates for manual intervention are much higher than the corresponding electronic
rate.
                                 Table 7. DFAS Billing Rates
                                                     FY 2012
                                             Manual         Electronic
                          Navy               $21.96           $4.18
                          Army               $21.28             $2.18
                          USAF               $26.13             $7.58
                          Other DoD          $22.31             $2.62
                          USMC               $24.26             $4.33

As shown in table 8, DFAS billed the Military Departments and Defense Agencies about
$3.2 million to manually correct the errors. Had DFAS been able to process the line items
electronically and without manual intervention, the Military Departments and Defense Agencies
would have been billed about $2.6 million less in processing fees.




                                               15 

        Table 8. Potential Reduced Costs via Electronic Processing During FY 2012
                             Manual             Electronic         Cost difference
       Navy              $1,472,747.40         $280,331.70          $1,192,415.70
       Army                     1,057,658.56                  108,350.36                 949,308.20
       USAF                       404,048.19                  117,209.54                 286,838.65
       Other DoD                  221,649.85                   26,029.70                 195,620.15
       USMC                         11,426.46                   2,039.43                    9,387.03
        Total                 $3,167,530.46                $533,960.73               $2,633,569.73

Shipment Counselors Used Invalid Data to Override Controls
Counselors entered invalid data into DPS to expedite the shipping process for Service members.
DPS did not have effective controls to prevent counselors from entering invalid accounting data.
In some instances, counselors used the DPS override feature to continue processing the shipment
                                          for the affected Service member because of invalid
  Valid accounting data and accurate
                                          accounting data on travel orders and in the DFAS
       DPS data entry would have
                                          Transportation Global Edit Table.4 Valid accounting
  prevented manual input of line items
                                          data and accurate DPS data entry would have
   that required correction by DFAS.
                                          prevented manual input of line items that required
correction by DFAS. Shipment counselors in the Military Departments input the necessary
shipment information into DPS and reviewed data input by the Service member (self-counseled)
but overrode the controls of the DPS system. Counselors entered invalid data in the system to
force acceptance of the information, which required subsequent manual correction by DFAS.

Audit trail information in DPS was insufficient. Specifically, DPS did not capture information
on counselors that entered accounting data into the system, and counselors who overrode the
system controls were not identifiable.

According to the Defense Personal Property Program “Line of Accounting” reference guide,
July 2010, the most frequent errors input by counselors included:

            selecting the wrong organizational code, which states the branch of service paying for
             the move,
            using lowercase instead of the required uppercase, and
            using alpha characters in place of numeric.

DFAS Indianapolis Transportation Payment Office personnel concluded that the DPS override
function, to correct error messages, was allowing erroneous data to bypass DPS quality controls.


4
 The DFAS Transportation Global Edit Table is a centralized repository that contains established lines of
accounting. Per the DoD FMR, volume 10, chapter 13, “Commercial Transportation Payments,” June 2011, each
DoD Component is responsible for updating the Transportation Global Edit Table and ensuring the data are valid.
DPS downloads the table to authenticate line of accounting information.


                                                       16 

We reviewed a non-statistical sample of 20 transactions that DFAS manually corrected because
of incorrect Line of Accounting information. Of the 20 transactions, 18 had invalid
transportation account codes (TAC) in DPS. A TAC is an element of the line of accounting used
by the Army and Navy. An incorrect TAC invalidates the entire line of accounting and requires
a manual correction. DFAS Indianapolis Transportation Payment Office personnel must
research available information, such as the Service members travel orders, to identify the correct
TAC and line of accounting. In some cases, DFAS must contact the responsible transportation
office to obtain the correct information.

DFAS Indianapolis Transportation Payment Office personnel also stated that DoD shipment
counselors overrode the system and input a movement designator code in the place of a TAC.
For example, on the PPSO-Fort Bliss March 2012 summary invoice, a shipment counselor had
input movement designator code “7BE2” instead of a TAC. This error occurred on 487 line
items, with payments totaling $220,600. In another example, the PPSO-Fort Jackson summary
invoice for March 2012 included movement designator code “3AE2” instead of a TAC. This
error occurred on 218 line items, totaling $187,229. In each case, DFAS Personal Property
Exam Division personnel had to manually correct the accounting errors before reimbursing
US Bank.

After the shipment counselors overrode the controls, PPSO certifying officers certified
inaccurate accounting information before sending the information to DFAS. PPSOs at two
locations were making efforts to correct the data before sending the data to DFAS. However,
correcting the data was a time-consuming process that had to be completed within 5 days. For
example, two PPSO-Washington personnel (a lead voucher examiner and a Non-Commissioned
Officer), appointed by the Commanding Officer to review Syncada summary invoices,5 indicated
that about one half of their typical work day involved correcting accounting information errors.
PPSO-Colorado Springs also had two full time staff members correcting summary invoices. In
both cases, however, the PPSO personnel stated they did not have enough time to correct all the
accounting errors before the summary invoice was certified by the Certifying Officer and sent to
DFAS for payment. According to the Defense Transportation Regulation, part II, chapter 212,
“Third Party Payment System Procedures,” May 3, 2011, summary invoices must be certified
within 5 days. Specifically, the summary invoice must be sent to the DFAS payment center in
sufficient time (but no later than 5 calendar days of the availability date) to allow DFAS to
process the summary invoice for payment, receive a refund for early payment, and avoid
penalties under the Prompt Payment Act.

The certification of incorrect accounting data is contrary to the provisions in the DoD Financial
Management Regulation, volume 10, chapter 13, “Commercial Transportation Payments,”
June 2011. Specifically, the certifying officer bears responsibility for reviewing and certifying
the monthly invoice for payment. As part of the review, the certifying officer must identify any
transactions that do not have a valid line of accounting. However, this identifying was not
occurring, and 62 percent of the items processed by DFAS required correction.


5
  The summary invoice is a reimbursement to US Bank for payments previously made (and approved) to
transportation service providers.


                                                     17 

PPSO certifying officers are individuals designated in writing by the activity commander. DFAS
and SDDC need to provide feedback to the PPSOs and their respective commanders that can be
used to identify training opportunities for the certifying officers. In addition, DFAS should
provide information on PPSO summary invoice accounting error rates to SDDC and the
information should identify each PPSO, its respective error rate, and trend pattern.

Controls To Prevent Overrides Were Inadequate
DPS did not have controls to prevent system overrides by DoD shipment counselors, including
automated flags to limit overrides. The system also needed to include an audit trail to support
the reasons for overrides.

Shipment counselors frequently used improper coding on the summary invoices. For example,
instead of entering the correct accounting information, counselors input invalid codes and alpha
                                           numeric characters (such as a string of x’s). DFAS
      DPS did not have an audit trail
                                           Personal Property Exam Division and SDDC Personal
    function to identify the individuals
                                           Property Division officials indicated nearly all the
   responsible for entering the invalid
                                           accounting errors were the result of counselors’
             accounting data.
                                           overriding DPS controls and manually entering
erroneous information. However, SDDC Personal Property Division officials could not identify
the counselors. SDDC stated that DPS did not have an audit trail function to identify the
individuals responsible for entering the invalid accounting data.

Additionally, a Defense Personal Property Program training document recommended using an
override for Army shipments. For example, Line of Accounting training for Army shipments
states that the user should override the accounting information when a failed validation occurs.
SDDC personnel needed to develop an automated checklist to replace existing training guidance
to assist the PPSOs and counselors in avoiding system overrides. SDDC needs to coordinate
with the Functional Review Board and initiate a system change request to limit the use of system
overrides and establish an audit trail to trace the reasons for approved overrides.

Other DoD payment systems, such as the Defense Travel System, use automated controls that
check the validity of entered data. These automated “checklists” aid DoD travelers and
approving officials as they enter and review reimbursable travel expenses. For example, excess
baggage costs would be flagged for review and not automatically approved. Eliminating the
errors will improve the timeliness and accuracy of the certification process. SDDC needs to
coordinate with the Functional Review Board and develop automated controls that check entered
data to aid PPSOs and counselors in reviewing the accuracy of the data. In addition, SDDC
should develop an action plan to reduce the occurrence of accounting errors by shipment
counselors.

As part of that plan, SDDC should obtain feedback from DFAS Indianapolis on accounting
errors. The feedback should identify the types and frequency of accounting errors by location.
The action plan should include not only provisions for gathering and disseminating information
on best practices at the high performing locations but also goals on reducing the errors and for
identifying counselor training opportunities. SDDC should develop an interim training plan,


                                               18 

pending implementation of the system change request on overrides, to ensure that shipment
counselors enter valid accounting data into DPS.

Reduced Accounting Costs
As shown in Table 8, eliminating the data processing errors could save the Military Departments
and Defense Agencies $2.6 million per year in future processing fees. If the Department made
needed improvements within the first year of the 6-year Future Years Defense Program,
$13 million could be saved over the remaining 5 years (5 times $2.6 million).

Recommendations, Management Comments, and
Our Response
Deleted and Renumbered Recommendations
As a result of management comments, we deleted draft Recommendation B.1.a. Draft
Recommendations B.1.b. through B.1.f. have been renumbered as Recommendations B.1.a.
through B.1.e.

B.1. We recommend the Commander, Surface Deployment and Distribution Command:

      a.     Provide information (in accordance with Recommendation B.2) on Personal
Property Shipping Office accounting errors to the appropriate Personal Property
Shipping Office activity commanders.

USTRANSCOM Comments
The Deputy Commander, USTRANSCOM, agreed to distribute PPSO accounting error reports
(pending receipt from DFAS) to the appropriate Services.

      b.     Initiate a system change request, in coordination with the Defense Personal
Property System Functional Review Board, to limit the use of system overrides.

USTRANSCOM Comments
The Deputy Commander, USTRANSCOM, agreed to initiate a system change request to limit
the use of system overrides. The Deputy Commander indicated that this request would be
combined with the system change request in Recommendation A.1.b, which has an estimated
completion date pending award of the DPS contract in October 2013.

      c.     Establish an automated checklist, in coordination with the Defense Personal
Property System Functional Review Board, to prevent improper overrides and maintain
supporting documents to provide an audit trail to trace the reasons for approved overrides.

USTRANSCOM Comments
The Deputy Commander agreed to initiate a system change request to establish an automated
checklist and to provide an audit trail for approved overrides. The Deputy Commander indicated




                                              19 

that this request would be combined with the system change request in Recommendation A.1.b,
which has an estimated completion date pending award of the DPS contract in October 2013.

Our Response
The Deputy Commander’s comments on Recommendations B.1.a through B.1.c were
responsive, and no further comments were required.

       d.     Develop an action plan with goals and metrics to reduce the occurrence of
accounting errors by shipment counselors. The plan should identify best practices and
areas that would benefit from additional training. The plan should also update current
training documents and eliminate, wherever possible, instructions on performing system
overrides.

USTRANSCOM Comments
The Deputy Commander disagreed with the recommendation and stated that goals, metrics, and
counselor training are the responsibility of each Service. However, the Deputy Commander also
stated that SDDC would analyze PPSO accounting error reports provided by DFAS and provide
feedback to the Services that could be used to develop goals and metrics.

Our Response
Although the Deputy Commander disagreed with the recommendation, she did agree to provide
information on PPSO accounting errors to the Services. Providing feedback on PPSO
accounting errors will help identify the best performers and those needing improvement. In
comments to Recommendation B.1.e, the Deputy Commander also indicated the Services had
updated counselor training documents. The Deputy Commander and the Services have endorsed
the essential elements of the action plan—sharing key performance data and updating training
documents. The intent of the recommendation was met, and no further comments were required.

       e.    Develop an interim training plan, pending implementation of the system
change request on overrides so that shipment counselors enter valid accounting data into
the Defense Personal Property System.

USTRANSCOM Comments
The Deputy Commander disagreed with the recommendation and stated that counselor training is
the responsibility of the PPSO. The Deputy Commander also stated that each Service had
created instructional guides to reinforce how counselors process valid information in the system.

Our Response
The Deputy Commander provided information indicating an interim training plan was
unnecessary in part because the Services had developed unique instructional guides for its
shipment counselors. The instructional guides, according to the Deputy Commander, emphasize
the process for entering valid information into DPS. Entering valid data should also reduce the
frequency of system overrides by shipment counselors. The information provided by the Deputy
Commander indicated that the Services had taken action to improve training as intended by the
recommendation, and no further comments were required.


                                               20 

B.2. We recommend the Director, Defense Finance and Accounting Service, provide
information on Personal Property Shipping Office summary invoice accounting error
rates to the Commander, Surface Deployment and Distribution Command. The
information should identify each Personal Property Shipping Office, its respective error
rate, and trend pattern.

DFAS Comments
The Director, DFAS Indianapolis, agreed to provide information on PPSO error rates and trend
patterns to SDDC. He also agreed that the information would be useful for training certifying
officers. Estimated completion date is April 1, 2014.

Our Response
The Director’s comments were responsive, and no further comments were required.




                                              21 

Appendix A. Scope and Methodology
We conducted this performance audit from February 2012 through March 2013 in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

We obtained information on HHG pre-payment audits for the period July 2010 through March
2012 from GSA. GSA segregated the information into two categories: electronic (Syncada)
invoices and paper invoices. In aggregate, GSA provided information on 15,081 electronic
invoices (total value of $12.7 million) and 1,313 paper invoices (total valued of $1.2 million).
We sorted each category by dollar value and selected a non-statistical sample of
60 overpayments including the 50 largest electronic invoices and 10 largest paper invoices. See
Appendix B for the shipment details related to the 60 overpayments. We visited DFAS
Indianapolis and SDDC to verify the information provided by GSA and to determine the root
cause for 60 of the overpayments identified by GSA. Specifically, we reviewed each of the
sample items and determined whether the invoice dates exceeded the 3-year statute of
limitations, whether the payment was a duplicate, and whether the overpayment was because of a
weight adjustment error.

We obtained on-line access to DPS during the audit and verified information from our sample
items within DPS. We also observed the approval of invoices at PPSOs.

We obtained Syncada summary invoices on 116 DoD HHG accounts from US Bank. We
analyzed the invoices and summarized carrying balances, interest payment amounts, and
quantified the total number of transactions processed electronically and those requiring manual
intervention by DFAS. We selected a non-statistical sample of 20 manual transactions (2 each
from 10 accounts with the most manual line items) that had invalid and incorrect accounting
information.

We obtained FY 2012 work count information and billing rates from DFAS Indianapolis. We
analyzed the work counts and calculated the FY 2012 billings for DFAS customers.

We visited PPSO locations in Colorado Springs, Colorado, and Ft Belvoir, Virginia. We also
obtained information via e-mail from PPSO Norfolk, Virginia and Puget Sound, Washington.
Information we obtained included summary invoices, quality assurance procedures, and reweigh
results.

We reviewed DoD, SDDC, and DFAS guidance on processing HHG shipment invoices, using a
third party payment system, Antideficiency Act violations, and reporting improper payments.




                                                22 

Use of Computer-Processed Data
To perform this audit, we used data from US Bank’s Syncada system (third party payment
system). We relied on computer-processed data in Syncada to achieve our audit objectives.
Specifically, for purposes of the audit, we obtained information from PowerTrack Summary
Invoices. We reviewed Ernst and Young’s assurance report on Syncada (period October 1, 2010,
through September 30, 2011). Based on the testing performed by Ernst and Young, we
concluded the computer-processed data obtained from Syncada were reliable and would have no
effect on the project objectives.

We also used data from DFAS entitlement systems (Computerized Accounts Payable System and
Defense Transportation Payment System) and SDDC personal property systems (DPS and
Central Web Application). We evaluated the reliability of the data on a case by case basis and
found it to be suitably reliable to accomplish the audit objectives. Specifically, for each of the
60 sample items, we obtained corroborating information, such as Government bills of lading,
Syncada payment records, and GSA account receivable queries that collectively established the
reliability of the data.

Use of Technical Assistance
Personnel from the Quantitative Methods Division assisted us in evaluating overpayment data
provided by GSA. Additionally, personnel from the Office of General Counsel assisted us in
evaluating potential Antideficiency Act violations.

Prior Coverage
During the last 5 years, the U.S. Army Audit Agency issued two reports discussing DoD
personal property shipments. Unrestricted Army reports can be accessed from .mil and gao.gov
domains over the Internet at https://www.aaa.army.mil/.

Army
Army Audit Agency Report A-2010-0219, “Internal Controls Over Personal Property Shipment
Costs – DoD,” September 30, 2010

Army Audit Agency Report A-2010-0177, “Internal Controls Over Personal Property Shipment
Costs – Army,” September 16, 2010




                                               23 

Appendix B. Overpayments Reviewed
We reviewed 60 of the largest overpayments identified and recovered by GSA. Specifically, we
reviewed the 50 largest Syncada invoices and the 10 largest paper invoices. Syncada invoices
are subject to PPSO pre-payment review and approval. DFAS used a contractor, NTS, to
perform pre-payment audits of paper invoices.

Syncada Invoices
1. Shipment No. JENQ0000569. GSA determined Washburn Storage, Inc. submitted an
erroneous invoice for a bunker surcharge of $45,540. The invoice included a data entry error,
and the Puget Sound Personal Property Shipping Office (PPSO) official should not have
approved the invoice for payment. GSA issued an overcharge notice and asked for supporting
documentation for the excessive charge, but did not receive the supporting documentation.

2. Shipment No. ZX407134. Hill Moving Services, Inc. failed to submit a $44,509 invoice
before the 3-year statute of limitations expired. GSA indicated that the last activity of linehaul
was on April 10, 2007 and that the next invoicing activity was on May 7, 2010, which exceeds
the 3-year statute. The Puget Sound PPSO official failed to identify that the statute of limitations
had expired and therefore incorrectly approved the invoice for payment.

3. Shipment No. ZX145704. GSA determined Hill Moving Services, Inc., failed to submit a
$26,551 invoice before the 3-year statute of limitations expired. The TSP delivered the shipment
on June 19, 2006, but did not invoice until July 1, 2010, which exceeds the 3-year statute. The
Puget Sound PPSO official failed to identify the statute of limitations had expired and therefore
incorrectly approved the invoice for payment.

4. Shipment No. ZX144957. GSA determined Hill Moving Services, Inc., failed to submit a
$23,381 invoice before the 3-year statute of limitations expired. Specifically, the invoice
creation date of March 12, 2010, is more than 3 years after the delivery date of
November 22, 2006. The Puget Sound PPSO official failed to identify the statute of limitations
had expired and therefore incorrectly approved the invoice for payment.

5. Shipment No. HAFC0011491. GSA determined Coleman American Moving Services, Inc.,
submitted an erroneous invoice for $22,758. SDDC determined that the San Antonio PPSO
official correctly denied the invoice; however, DPS erroneously rated and approved the invoice
for payment. The PPSO official failed to detect that DPS incorrectly approved the invoice for
payment, even after the approving official’s denial.

6. Shipment No. ZX407737. GSA determined Hill Moving Services, Inc., failed to submit a
$19,668 invoice before the 3-year statute of limitations expired. Specifically, the invoice
creation date of July 21, 2010, is more than 3 years after the delivery date of June 27, 2007. The
Puget Sound PPSO official failed to identify that the statute of limitations had expired and
therefore incorrectly approved the invoice for payment.




                                                24 

7. Shipment No. KQ159360. GSA determined AAA Moving & Storage, Inc., submitted an
invoice for $18,629 in excessive crating charges without providing documentation. The Guam
PPSO official incorrectly approved the invoice for payment. SDDC concurred and also
identified an additional invoice with an overcharge related to the shipment.

8. Shipment No. ZX275774. GSA determined Hill Moving Services, Inc., failed to submit an
$18,884 invoice before the 3-year statute of limitations expired. Specifically, the invoice
creation date of July 1, 2010, is more than 3 years after the delivery date of June 1, 2006. The
Fort Lewis PPSO official failed to identify that the statute of limitations had expired and
therefore incorrectly approved the invoice for payment.

9. Shipment No. KQ146385. GSA determined Perfect Pak Co., submitted two invoices with
identical charges on March 11, 2011. The Pearl Harbor PPSO official failed to identify the
duplicate invoices and incorrectly approved payment on both, which resulted in an
$18,400 overpayment.

10. Shipment No. AGFM0009740. GSA determined Coleman American Moving Services,
Inc., submitted an erroneous invoice for $18,290 based on a data entry error. SDDC determined
that the TSP inappropriately entered the weight of the shipment in the rate field. The New
England PPSO official should have identified the error and denied payment of the invoice.

11. Shipment No. ZX146370. GSA determined Hill Moving Services, Inc., failed to submit
invoices totaling $17,606 before the 3-year statute of limitations expired. Specifically, the
invoice creation date of January 21, 2010, exceeds the 3-year statute after the delivery date of
June 28, 2006. The Puget Sound PPSO official failed to identify that the statute of limitations
had expired and therefore incorrectly approved the invoice for payment.

12. Shipment No. APAT0000031. GSA determined Coleman American Moving Services, Inc.,
submitted an erroneous invoice for $16,938 because of a data input error. The TSP submitted an
invoice with a 538,000 percent fuel surcharge (FSC) instead of the correct 1 percent FSC. The
Fort Dix PPSO official rejected the original submission of the FSC. The TSP then resubmitted
the invoice with the 538,000 percent FSC, and the PPSO official incorrectly approved it.
Additionally, the TSP submitted the correct FSC of $7.49, and the invoice was approved by the
PPSO. The Fort Dix PPSO official correctly rejected the first erroneous invoice but failed to
identify the extraordinary FSC again on the second invoice and therefore inappropriately
approved the second invoice for payment.

13. Shipment No. BKMT0002607. GSA determined Coleman American Moving Services,
Inc., submitted an erroneous invoice for $16,931 because of a data entry error. The TSP
incorrectly invoiced for 3,256 days of additional storage in transit (SIT) instead of the correct
6 days. The Camp Lejeune PPSO official inappropriately approved the invoice for payment that
included the 3,256 days of additional SIT.

14. Shipment No. HAFC0005222. GSA determined Coleman American Moving Services, Inc.,
overcharged DoD by $16,345 because the TSP failed to use the correct shipment code for the
shipment. Specifically, the TSP invoiced the shipment as International Door-to-Container



                                                25 

(Code 3) instead of International Land-Air-Land Baggage (Code 8). The San Antonio PPSO
official should have identified that the shipment was not a Code 3 shipment. Additionally,
SDDC determined GSA incorrectly calculated the overcharge by using a weight of 1,490 pounds
instead of the correct 840 pounds. The PPSO official should have identified the incorrect
weight.

15. Shipment No. ZX145694. GSA determined Hill Moving Services, Inc., failed to submit a
$16,070 invoice before the 3-year statute of limitations expired. Specifically, the invoice
creation date of July 6, 2010, is more than 3 years after the delivery date of July 12, 2006. The
Puget Sound PPSO official failed to identify that the statute of limitations had expired and
therefore incorrectly approved the invoice for payment.

16. Shipment No. ZX406232. GSA determined Hill Moving Services, Inc., failed to submit a
$15,630 invoice before the 3-year statute of limitations expired. Specifically, the invoice
creation dates of May 20, 2010, and June 8, 2010, are more than 3 years after the delivery date of
December 29, 2006. The Puget Sound PPSO official failed to identify that the statute of
limitations had expired and therefore incorrectly approved the invoice for payment.

17. Shipment No. ZX408137. Hill Moving Services, Inc., failed to submit a $14,302 invoice
before the 3-year statute of limitations expired. Specifically, the delivery date was on May 25,
2007, and the TSP did not invoice for payment until July 12, 2010, and July 13, 2010, which
exceeds the 3-year statute. The Puget Sound PPSO official failed to identify that the statute of
limitations had expired and therefore incorrectly approved the invoice for payment.

18. Shipment No. BGAC0003525. GSA determined Coleman American Moving Services, Inc.,
submitted two invoices with identical $13,242 linehaul adjustment claims on November 12,
2009, and February 23, 2011. The Fort Belvoir PPSO official failed to identify and deny the
duplicate second invoice.

19. Shipment No. ZX166931. GSA determined that the entire invoice submitted by
A Columbia Forwarders, Inc., comprised duplicate charges on prior invoices. The Miami PPSO
official failed to identify $12,627 in duplicate charges.

20. Shipment No. CNNQ0000513. GSA determined Coleman American Moving Services
invoiced $12,573 for the shipment’s linehaul on January 12, 2010, and again for the same
amount as a linehaul adjustment on December 6, 2010. On the December invoice, the TSP
indicated it would invoice again for a refund of the original linehaul charge. SDDC determined
the refund was never invoiced, and the Jacksonville PPSO official should not have approved the
duplicate invoice.

21. Shipment No. ZX145403. GSA determined Hill Moving Services, Inc., failed to submit a
$12,304 invoice before the 3-year statute of limitations expired. Specifically, the invoice
creation date of May 25, 2010, is more than 3 years after the delivery date of July 3, 2006. The
Puget Sound PPSO official failed to identify that the statute of limitations had expired and
therefore incorrectly approved the invoice for payment.




                                                26 

22. Shipment No. QENQ0000936. Washburn Storage, Inc., originally submitted an erroneous
linehaul charge, and the Yokosuka PPSO official correctly denied it. GSA determined the TSP
then invoiced for the correct linehaul twice and the PPSO inappropriately approved both
invoices. The overcharges totaled $11,975.

23. Shipment No. KQ216979. GSA determined Crystal Forwarding, Inc., submitted an
erroneous invoice because of a data input error. SDDC determined that the TSP incorrectly
entered the shipment weight into Central Web Application, which caused the Central Web
Application rating tool to cost line items 100 times the correct amount. The JPPSO Colorado
Springs official incorrectly approved the erroneous invoice that led to an overpayment of
$11,844 to the TSP. Also, SDDC determined that GSA did not identify all the overcharges on
the invoice.

24. Shipment No. ZX408599. Hill Moving Services, Inc., failed to submit the $11,798 invoice
before the 3-year statute of limitations expired. Specifically, the last activity of linehaul was on
June 24, 2007, and the next activity of invoicing was not until July 22, 2010, which exceeds the
3-year statute. The Puget Sound PPSO official failed to identify that the statute of limitations
had expired and therefore incorrectly approved the invoice for payment.

25. Shipment No. PBNQ0003132. GSA determined Coleman American Moving Services, Inc.,
was not eligible to invoice $11,711 for linehaul charges because the shipment was terminated at
origin. The Guam PPSO official should not have approved the disallowed charges.

26. Shipment No. HAFC0016177. GSA determined Quality Moving Services, Inc., invoiced
$11,654 for the linehaul on November 2, 2010, and again for the same amount as a linehaul
adjustment on November 12, 2010. The San Antonio PPSO official should not have approved
the duplicate charge. Additionally, SDDC determined that both of the invoices submitted by the
TSP were erroneous because of a data input error. Specifically, the TSP invoiced using the
incorrect weight of 11,380 pounds instead of the correct weight of 4,097 pounds. SDDC
determined that the total overcharge was actually $19,113 and started recovery efforts.

27. Shipment No. KDAK0000943. GSA determined AAA Moving & Storage, Inc., used an
incorrect weight to calculate a linehaul charge, which led to $5,815 in overcharges. The Fort
Huachuca PPSO official should have identified the incorrect weight before certifying the invoice
for payment. Additionally, the TSP refunded the entire invoice associated with the overcharge.
In total, the TSP refunded $14,274.63 for the shipment.

28. Shipment No. WFFL0001917. GSA determined Accelerated Intl Forwarders, LLC, was not
eligible to invoice $11,644 for linehaul, bunker surcharge, and FSC because the shipment was
terminated at origin SIT location. Because the delivery never occurred, the responsible
destination office official at the Fort Belvoir PPSO should have denied the charges.

29. Shipment No. QFAC0000413. GSA determined AAA Moving & Storage, Inc., invoiced
$11,479 for a linehaul on April 1, 2010, and again for the same amount as a linehaul adjustment
on January 19, 2011. The Camp Zama PPSO official should not have approved payment of the
duplicate charge.



                                                 27 

30. Shipment No. QENQ0000733. GSA determined B & B Forwarding, Inc., invoiced multiple
times for three line items. Consequently, the TSP submitted $11,365 in overcharges. The
Yokosuka PPSO official should not have approved and paid the duplicate charges.

31. Shipment No. WFFL0000542. GSA determined Accelerated Intl Forwarders, LLC, was not
eligible to invoice for $10,819 in linehaul charges because the shipment was terminated at origin.
The Spangdahlem PPSO official should have denied the charges.

32. Shipment No. BGAC0021480. Quality Moving Services, Inc., incorrectly invoiced using
the original weight of the shipment. After a reweigh showed the shipment was 4,716 pounds
lighter than originally invoiced, the TSP submitted a linehaul refund along with an additional
linehaul charge to atone for the reweigh. However, the TSP made an error, refunded what
should have been the correct charge, and once again invoiced the incorrect charge. The Fort
Belvoir PPSO official should have detected the $10,639 invoicing error and directed the TSP to
correct the invoice. Additionally, SDDC indicated GSA failed to identify and recover FSC
overcharges originating from the weight adjustment.

33. Shipment No. JY166440. GSA determined Davidson Forwarding Company invoiced for all
charges on September 10, 2010, and again invoiced many of the same charges as “Miscellaneous
Charge” on November 9, 2010. The duplicate invoices led to $10,579 in overcharges. The Fort
Lewis PPSO official should not have approved payment of the duplicate charges. SDDC
indicated that the PPSO should have immediately questioned the charges because they were
listed as “miscellaneous.”

34. Shipment No. JY025811. GSA determined Clune Transfer, Inc., used incorrect mileage to
calculate a linehaul charge, which led to $10,515 in overcharges. Specifically, the TSP rated a
shipment at 1,683 miles instead of the correct 799 miles. The Fort McPherson/Fort Gillem
PPSO official should have identified the error and disallowed the charge.

35. Shipment No. AGFM0016423. GSA determined Quality Moving Services, Inc., invoiced
identical $9,578 linehaul adjustment charges on December 28, 2010, and January 6, 2011. The
New England PPSO official should have identified the error and disallowed the duplicate charge.

36. Shipment No. MBFL0002359. GSA determined Planes Moving & Storage, Inc., invoiced
$9,418 for a linehaul and FSC on February 22, 2011, and again for the same amount on March 1,
2011. The Anchorage PPSO official should have identified that the second invoice was a
duplicate and disallowed the charges.

37. Shipment No. KKFA0009830. GSA determined Deseret Forwarding Intl., Inc., submitted
an erroneous invoice because of a data input error, which caused $9,222 in overcharges. The
TSP incorrectly used the actual weight, instead of the hundredweight (CWT), 6 to calculate the
linehaul charge. This caused the linehaul to be 100 times more than the correct amount. The
Colorado Springs PPSO official should not have approved the erroneous invoice.



6
    A hundredweight, or CWT, is equal to 100 pounds.


                                                       28 

38. Shipment No. HAFC0013361. GSA determined Coleman American Moving Service, Inc.,
invoiced $9,144 for a linehaul on March 15, 2010, and again for the same amount as a linehaul
adjustment on August 7, 2010. On the August 7, 2010, invoice, the TSP indicated it would
invoice again for a refund of the original linehaul charge. SDDC determined the refund was
never invoiced, and the San Antonio PPSO official should not have approved the duplicate
invoice.

39. Shipment No. WKFS0004156. GSA determined Coleman American Moving Service, Inc.,
submitted an erroneous invoice because the TSP used the wrong weight, which caused $8,945 of
overcharges. The TSP calculated the linehaul charge using a 72.8 CWT instead of the correct
6.06 CWT. The Kaiserslautern PPSO official should have identified the error and disallowed the
charge.

40. Shipment No. KKFA0020837. GSA determined Patriot Forwarders, Inc., submitted an
erroneous invoice because of a data input error, which led to $9,767 in overcharges. The TSP
calculated the linehaul charge using an 84.6 CWT instead of the correct 7.15 CWT. The
Colorado Springs PPSO should have identified the error and disallowed the charge.

41. Shipment No. ZX405689. GSA determined Hill Moving Services, Inc., failed to submit an
$8,738 invoice before the 3-year statute of limitations expired. Specifically, the invoice creation
date of May 11, 2010, is more than 3 years after the delivery date of February 1, 2007. The
Puget Sound PPSO official failed to identify that the statute of limitations had expired and
therefore incorrectly approved the invoice for payment.

42. Shipment No. WKAS0000671. GSA determined RE/MAX Allegiance Relocation Services
invoiced a linehaul based on the original CWT of 194.8 and did not adjust the charges after a
reweigh the showed the shipment was 139.4 CWT. This caused $8,678 in overcharges. The
European Theater PPSO official should have identified the error and disallowed the charge.

43. Shipment No. ZX145659. GSA determined Hill Moving Services, Inc., failed to submit an
$8,678 invoice before the 3-year statute of limitations expired. Specifically, the invoice creation
date of July 1, 2010, is more than 3 years after the delivery date of June 27, 2006. The Puget
Sound PPSO official failed to identify that the statute of limitations had expired and therefore
incorrectly approved the invoice for payment.

44. Shipment No. APAT0003580. GSA determined AAA Heartland Express submitted two
invoices with identical charges of $8,542 on November 2, 2011, and November 16, 2011. The
Fort Dix PPSO official failed to identify the duplicate invoices and incorrectly approved
payment on both.

45. Shipment No. ZX406623. Hill Moving Services, Inc., failed to submit an $8,513 invoice
before the statute of limitations expired. Specifically, the last activity of linehaul was delivery
out of SIT on January 25, 2007, and the next activity of invoicing was on July 12, 2010, which
exceeds the 3-year statute. The Puget Sound PPSO official failed to identify that the statute of
limitations had expired and therefore incorrectly approved the invoice for payment.




                                                 29 

46. Shipment No. LFMT0001393. GSA determined Coleman American Moving Services, Inc.,
incorrectly invoiced the linehaul, SIT, and FSC using the estimated weight of 10,000 pounds
instead of the net weight of 3,170 pounds and thus overcharged DoD by $8,459. The Camp
Pendleton PPSO official should have recognized the erroneous charge and denied the invoice.
Additionally, the TSP improperly invoiced the charges under “Miscellaneous Charge.” SDDC
officials indicated that the “Miscellaneous Charge” should have brought added scrutiny of the
invoice.

47. Shipment No. ZX247179. Pullen Moving Company, Inc., failed to submit an $8,345
invoice before the 3-year statute of limitations expired. Specifically, the last activity of linehaul
was delivery out of SIT on September 21, 2006, and the next activity of invoicing was on
January 11, 2010, which exceeds the 3-year statute. The Fort Belvoir PPSO failed to identify
that the statute of limitations had expired and therefore incorrectly approved the invoice for
payment.

48. Shipment No. BGNC0004026. Arpin International Group, Inc., used the combined
estimated and actual weights to calculate the linehaul rate. GSA determined that the incorrect
weight led to $8,208 in overcharges. The Norfolk PPSO official failed to identify the error and
incorrectly approved the invoice. Additionally, SDDC started recovery efforts after determining
GSA did not recover an overcharge related to the FSC.

49. Shipment No. JEAT0002868. GSA determined Stevens Transportation Co, Inc.,
erroneously calculated the SIT charges which caused $8,572 in overcharges. The Fort Lewis
PPSO official should have identified the errors and denied payment.

50. Shipment No. ZX951326. GSA determined Glacier Forwarding, Inc., used incorrect
mileage to calculate invoice charges and overcharged DoD by $8,129. The Anchorage PPSO
official should have identified the mileage errors and denied the charges.

Paper Invoices
1. Shipment No. ZX737201. Andrew Van Lines, Inc., submitted invoices on January 8, 2009,
and February 23, 2009. GSA determined that $21,218 of the charges on the February 23, 2009,
invoice were duplicate of charges on the first invoice. NTS prepayment audits should have
identified the duplicate charges and denied payment to the TSP.

2. Shipment No. GQ120714. GSA determined Gridiron Forwarding Co, Inc., submitted an
erroneous invoice because of a data input error, which led to $11,065 in overcharges.
Specifically, the TSP erroneously used a linehaul rate of 252.29 instead of the correct rate of
175.5. SDDC could not verify all the charges for the shipment because the invoice was handled
manually through DFAS. NTS prepayment audits should have denied payment to the TSP.

3. Shipment No. ZX597801. GSA determined United Van Lines, LLC, calculated a linehaul
using the incorrect weight and overcharged DoD by $7,928. Specifically, the TSP did not amend
the linehaul charge after a reweigh indicated a lower shipment weight.




                                                 30 

4. Shipment No. ZX990694. GSA determined Henderson Transfer Co, Inc., submitted identical
linehaul and SIT charges through both PowerTrack and a manual invoice, which caused $6,559
in overcharges. According to GSA, PowerTrack was the correct payment mode, and the NTS
prepayment auditor should have denied the duplicate manual invoice.

5. Shipment No. ZY395832. GSA determined Allied Freight Forwarding, Inc., was erroneously
paid $5,508 more than it invoiced. Additionally, SDDC determined the TSP made errors
calculating the linehaul as well as charging for packing and unpacking.

6. Shipment No. GQ118762. GSA determined Senate Forwarding, Inc., incorrectly invoiced
$5,451 for crating charges associated with another shipment (GQ092328). NTS should have
recognized that crating charges were not allowed and that crates did not appear on the weight
certificate for the invoiced shipment.

7. Shipment No. GQ087173. GSA determined American Vanpac Carriers, Inc., received
duplicate payments on charges totaling $5,123. SDDC could not determine which charges were
duplicates, because the invoice was handled manually through DFAS.

8. Shipment No. ZY924416. Atlas Forwarding, Inc., was paid for invoices on August 20, 2007,
and September 27, 2007. GSA determined that $4,922 of charges on the second invoice were
also on the first invoice.

9. Shipment No. ZX982298. GSA determined Meramec Valley Transport, LLC, calculated the
linehaul using the incorrect weight and overcharged DoD by $4,992. Specifically, the TSP did
not amend the SIT charge after a reweigh indicated a lower shipment weight. Additionally,
SDDC began recovery efforts after determining GSA failed to identify an additional $2,277 of
overcharges on the invoice.

10. Shipment No. ZX980750. GSA determined Suddath Van Lines, Inc., was overpaid $4,502
as a result of the TSP’s failure to adjust linehaul charges after a reweigh and because of duplicate
payments made by DFAS.




                                                31 

United States Transportation Command Comments





                Click to add JPEG file




                                 32
United States Transportation Command Comments     Final Report
                                                   Reference




                Click to add JPEG file
                                                Deleted




                                                Renumbered to
                                                Recommendation
                                                B.1.a


                                                Renumbered to
                                                Recommendation
                                                B.1.b




                                 33
United States Transportation Command Comments     Final Report
                                                   Reference




                                                Renumbered to
                                                Recommendation
                                                B.1.c



                                                Renumbered to
                                                Recommendation
                                                B.1.d




                                                Renumbered to
                                                Recommendation
                Click to add JPEG file          B.1.e




                                 34
Defense Finance and Accounting Service Comments





                 Click to add JPEG file




                                  35
Defense Finance and Accounting Service Comments





                 Click to add JPEG file




                                  36
